No.
IN THE
SUPREME COURT OF THE UNITED STATES

Arthur 0. Armstrong,
Petitioner,
v.
County of Nash-Wilson, et al
Respondents.

PROOF OF SERVICE
1^

Arthur O. Armstrong

do swear or declare that on this date, April 14. 2020. as
required by the Supreme Court Rule 29.1,1 have served the enclosed petition for a writ
of certiorari on each party in the above proceeding, or that party's counsel and every
other person required to be served by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and with firstclass postage prepaid, or by delivery to a third party commerical carrier for delivery
within 3 calendar days: Joseph Finarelli. Esq, Department of Justice, P. Q. Box 629
Raleigh. North Carolina 27602.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on April 14, 2020.

1

RECEIVED
APR 2 0 2020
OFFICE OF THE CLERK
SUPREME COURT. U S.

